                                  NATIONAL SCIENCE FOUNDATION
                                    WASHINGTON, D.C. 20550




                Office of
            Inspector General



            MEMORANDUM
                    DATE: March 31, 1992

--   - - - - --       ) . 1
                    FROM:               Special
                                          ----  Agent,
                                                  -- -
                                                    .  Investigations
                                                                 -  --Unit
                                                                       ---   --   -- -    - ---
                                                                                         -.



                  SUBJECT:
                      TO: Case No. I91110025
            On November 7, 1991, upon returning-ot                  notified




          -
            NSF that he had accepted travel reimbursement =-cash    from the

          a          while on a trip their. According to -,      he told his
                      host that he could not accept the cash travel
                          and could only accept in kind services, but the
                     host unexpectedly insisted that he accept the currency.
                                     situation,       accepted the currency.
            On November 21, 1991, OGC reviewed the matter and determined that
                   technically violated -regulations        but did not violate
            the spirit and intent fo the regplations. OGC notified the OGC of
            this matter. OGC then advised-to         make a full accounting of
            the money and return any remaining funds to NSF. On November 25,
            1991,        provided a Cashier's check to NSF for      0. OGC has
            the c h s d are in the process of contacting t       h     e to see
            if they will accept return of the funds. If not, the        0. will
            be deposited into the NSF account.
            Because        made a full and immediate accounting of
            and the funds received by the
            intend to violate the requlations anrrn
                                                  asand
            this matter, this case is hereby closed.
                                                     received
